March 17, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE: REGINA B. HEISLER, INDIVIDUALLY AND AS THE EXECUTRIX OF THE
SUCCESSION OF FREDERICK P. HEISLER V. GIROD LOANCO, LLC

Dear Sir or Madam:

I hereby certify that at the request of counsel for the Petitioner, on March 17,
2021, I caused service to be made pursuant to Rule 29 and the Temporary Order of
April 15, 2020, on the following counsel for the Respondent:

RESPONDENT:

J. Eric Lockridge

KEAN MILLER LLP

400 Convention Street, Suite 700
Baton Rouge, LA 70802
225-387-0999
eric.lockridge@keanmiller.com

This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.

vi. Sincerely,
E wt =,
Jack Suber, Esq. 2

Principal

LISA KAY NICHOLSON | Sworn and subscribed before me this 17th day of March 2021.
Notary Public
State of Maryland

Yana Aig X Pebobsen

 
 
